   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2007 AND 2006

     National Transportation Safety Board

        Report Number: QC-2008-009
       Date Issued: November 9, 2007
U.S. Department of                                              Office of Inspector General
Transportation                                                  Washington, DC 20590

Office of the Secretary
of Transportation



November 9, 2007

The Honorable Mark V. Rosenker
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, DC 20594

Dear Chairman Rosenker:

The audit of the National Transportation Safety Board’s (NTSB) Financial
Statements, as of and for the years ended September 30, 2007, and September 30,
2006, was completed by Leon Snead & Company, P.C., of Rockville, Maryland
(see Enclosure). We performed a quality control review of the audit work to
ensure that it complied with applicable standards. These standards include the
Chief Financial Officers Act; the Accountability of Tax Dollars Act of 2002;
Generally Accepted Government Auditing Standards; and Office of Management
and Budget Bulletin 07-04, “Audit Requirements for Federal Financial
Statements.”

Snead & Company concluded that the financial statements presented fairly, in all
material respects, the financial position, net cost, changes in net position, and
budgetary resources of the NTSB as of and for the years ended September 30,
2007, and September 30, 2006, in conformity with accounting principles generally
accepted in the United States.

The Snead & Company report presented two material internal control weaknesses,
one significant deficiency, and one instance of noncompliance with laws and
regulations.

Material Weaknesses

    1. NTSB IT Security Program Not in Compliance with FISMA
    2. Accounting Operations - Selected Controls and Processes Need
       Strengthening
Report Number QC-2008-009
                                                                                 2

Significant Deficiency

   1. Cost Accounting

Noncompliance with Laws and Regulations

   1. Antideficiency Act Violation

Snead & Company made four recommendations for corrective action; we agree
with them and, therefore, are making no additional recommendations. NTSB
concurred with the material weaknesses, significant deficiency, and
noncompliance; agreed with the recommendations; and committed to
implementing corrective actions by June 30, 2008.

In our opinion, the audit work performed by Snead & Company complied with
applicable standards.

We appreciate the cooperation and assistance of NTSB and Snead & Company
representatives. If we can answer questions or be of any further assistance, please
call me at (202) 366-1496 or Earl C. Hedges, Program Director, at
(410) 962-1729.

Sincerely,




Rebecca C. Leng
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure




Report Number QC-2008-009
